BECKER GALLAGHER
Bri e fs

and

DONNA J. WOLF, J.D.
JULIE

R ec ords

A.

CERTIFICATE OF SERVICE
I , Julie A. Kershner, he ·eby certify that 1 unbound
and 40 copie of the foregoing Petition for a Writ of
Certiorari in M. W. Watermarh, LLC and Michael
Gethin, Individually v. Evoqua Water Technologies,
LLC, were sent via Next Day Service to the U .S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 19th day of February, 2020:

Craig Robert Smith
Eric Peter Carnevale
Lando & Anastasi
One Main Street
10th Floor
Cambridge, MA 02142
(617) 395-7000
csmith@lalaw.com
ecarnevale@lalaw.com
Counsel for Respondent
G. Thomas Williams
Counsel of Record
McGarry Bair PC
45 Ottawa Ave. SW, Suite 700
Grand Rapids, MI 49503
Tel: 616-742-3500
Fax: 616-742-1010
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 19, 2020.

Julie A. Kershner
Becker Gallagher
Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Norary Public, Stale of Ohio
My Commission Expires
February 14, 2023

